                            SOCIAL SECURITY

                                  December 18, 2006

The Honorable Jim McCrery
Chairman, Subcommittee on Social Security
Committee on Ways and Means
House of Representatives
Washington, D.C. 20515

Dear Mr. McCrery:

I am pleased to provide you with the enclosed report addressing your April 7, 2006
letter, requesting an assessment of the accuracy of Social Security Administration’s
(SSA) Numident fields that are relied on by the Basic Pilot—a Department of Homeland
Security (DHS) employment eligibility verification service.

Thank you for bringing your concerns to my attention. My office is committed to
combating fraud, waste, and abuse in SSA’s operations and programs. The report
highlights various facts pertaining to the issues raised in your letter. To ensure SSA,
DHS and the Department of State are aware of the information provided to your office,
we are forwarding a copy of this report to the Inspectors General for each of these
agencies.

If you have any questions concerning this matter, please call me or have your staff
contact H. Douglas Cunningham, Assistant Inspector General for Congressional and
Intra-Governmental Liaison, at (202) 358-6319.

                                               Sincerely,




                                               Patrick P. O’Carroll, Jr.
                                               Inspector General

Enclosure

cc:
Jo Anne B. Barnhart




            SOCIAL SECURITY ADMINISTRATION         BALTIMORE MD 21235-0001
CONGRESSIONAL RESPONSE
       REPORT


 Accuracy of the Social Security
 Administration’s Numident File

          A-08-06-26100




          December 2006
                                    Mission
By conducting independent and objective audits, evaluations and investigations,
we inspire public confidence in the integrity and security of SSA’s programs and
operations and protect them against fraud, waste and abuse. We provide timely,
useful and reliable information and advice to Administration officials, Congress
and the public.

                                   Authority
The Inspector General Act created independent audit and investigative units,
called the Office of Inspector General (OIG). The mission of the OIG, as spelled
out in the Act, is to:

   Conduct and supervise independent and objective audits and
    investigations relating to agency programs and operations.
   Promote economy, effectiveness, and efficiency within the agency.
   Prevent and detect fraud, waste, and abuse in agency programs and
    operations.
   Review and make recommendations regarding existing and proposed
    legislation and regulations relating to agency programs and operations.
   Keep the agency head and the Congress fully and currently informed of
    problems in agency programs and operations.

  To ensure objectivity, the IG Act empowers the IG with:

   Independence to determine what reviews to perform.
   Access to all information necessary for the reviews.
   Authority to publish findings and recommendations based on the reviews.

                                     Vision
We strive for continual improvement in SSA’s programs, operations and
management by proactively seeking new ways to prevent and deter fraud, waste
and abuse. We commit to integrity and excellence by supporting an environment
that provides a valuable public service while encouraging employee development
and retention and fostering diversity and innovation.
                                                 Executive Summary
OBJECTIVE
To assess the accuracy of the Social Security Administration’s (SSA) Numident fields
that are relied on by the Basic Pilot.

BACKGROUND
As of November 2005, SSA had assigned about 435 million Social Security numbers
(SSN)—for the primary purpose of accurately reporting and recording the earnings of
people who work in jobs covered by Social Security. When SSA assigns an SSN to an
individual, the Agency creates a master record in its “Numident” file containing relevant
information about the numberholder.

SSA provides employers with a number of verification programs and services that allow
them to match employees’ names and SSNs with SSA’s records. Additionally, the
Basic Pilot, a Department of Homeland Security (DHS) program supported by SSA,
provides employers a tool for determining whether newly-hired employees reported the
correct name, SSN, date of birth and are authorized to work in the United States.
Recently, the House and Senate each passed immigration reform bills that would
mandate employers’ use of an employment eligibility verification system similar to the
Basic Pilot. Given the extent and significance of this proposed legislation, it is essential
that the Numident file contain correct information.

On April 7, 2006, we received a request from the Honorable Jim McCrery of the House
Committee on Ways and Means, Chairman of the Subcommittee on Social Security, to
assist the Subcommittee in obtaining information on the reliability of SSA data used in
the Basic Pilot program to verify employment eligibility. In particular, the Chairman
asked that we assess the accuracy of SSA Numident fields that are relied on by the
Basic Pilot. The Chairman specified that we determine Numident accuracy rates for
each of the following populations: (1) native-born U.S. citizens, (2) foreign-born
U.S. citizens, and (3) non-U.S. citizens. To address his request, we reviewed
810 randomly-selected Numident records in each of these populations (a total of
2,430 records) to determine their accuracy and whether data discrepancies might result
in inaccurate feedback from the Basic Pilot. Because SSA does not delete, destroy,
rescind, inactivate or cancel SSNs once they are assigned, 1 we selected our sample of
all SSNs the Agency had assigned as of November 30, 2005.

RESULTS OF REVIEW
We cannot predict the types of documentation each of the tested numberholders might
present to an employer when attempting to prove their identities and authorization to

1
    Programs Operations Manual System, RM 00201.040.


Accuracy of the Social Security Administration’s Numident File (A-08-06-26100)            i
work in the United States—as the current process allows a number of varying sources
of this information. 2 Accordingly, our audit conclusions only pertain to the accuracy of
SSA’s Numident file when compared to (1) information SSN numberholders provided to
SSA when applying for their original and/or replacement Social Security cards and, if
applicable, (2) certain data elements DHS had for the Numident records tested. Despite
these limitations, we found SSA’s Numident file information to be generally accurate.

We identified some discrepancies that could result in the Basic Pilot providing incorrect
feedback to employers attempting to determine the employment eligibility of their
workers. Specifically, of the 2,430 Numident records reviewed, 136 contained
discrepancies in the name, date of birth or citizenship status of the numberholder or we
determined that the numberholder may be deceased. 3 In all of these cases, the Basic
Pilot provided incorrect results. As a result, we estimate that discrepancies in
approximately 17.8 million 4 (4.1 percent) of the 435 million Numident records could
result in incorrect feedback when submitted through the Basic Pilot. While the accuracy
of SSA’s Numident records is noteworthy, if use of an employment verification service
such as the Basic Pilot becomes mandatory, the workload of SSA and DHS may
significantly increase—even if only a portion of these 17.8 million numberholders need
to correct their records with one of these agencies.

We are particularly concerned with the extent of incorrect citizenship information in
SSA’s Numident file for the foreign-born U.S. citizens 5 and non-U.S. citizens we tested.
Based on DHS information, we determined that 62 (7.7 percent) of the 810 foreign-born
U.S. citizen Numident records we reviewed were misclassified—and the numberholders
were not actually U.S. citizens. Given this exception rate, we estimate that about
616,420 of the approximate 8 million numberholders in the foreign-born U.S. citizen




2
  Presently, up to 29 documents issued by various Federal, State and local awarding agencies are valid
for completing the Employment Eligibility Verification (Form I-9), which is legally required for every
newly-hired employee. Acceptable records include (1) DHS identity and work authorization documents;
(2) U.S. passports; (3) SSN cards; (4) State and local Government records; and (5) records from schools,
medical facilities and the military. See 8 C.F.R. § 274a.2; DHS Form I-9.

3
 Of the 136 discrepancies, 42 (30.9 percent) were on Numident record entries dated before
May 15, 1978, the date on which SSA began requiring all SSN applicants to provide proof of age, identity
and U.S. citizenship. The remaining 94 (69.1 percent) Numident records were dated between
May 15, 1978 and November 30, 2005.
4
  This estimate was developed using a stratified sampling approach. We randomly selected
810 Numident records from each of the three populations. The three populations varied in size based on
the citizenship status and place of birth annotated on the Numident records. See Appendix C for our
sample results.
5
  Foreign-born U.S. citizens are those individuals who (1) were born abroad to U.S. citizen parents or
(2) became “naturalized” citizens after immigrating to the United States. 8 U.S.C. §§ 1401(c); 1421 et seq.


Accuracy of the Social Security Administration’s Numident File (A-08-06-26100)                          ii
category are not actually U.S. citizens. 6 Additionally, we noted that 57 (7.0 percent) of
the 810 non-U.S. citizen Numident records we reviewed were currently misclassified—
because the individuals had become U.S. citizens after obtaining their SSN but had not
updated their records with SSA. Although SSA is not at fault for these latter
misclassifications, we estimate that of the 46.5 million non-U.S. citizen records in SSA’s
Numident file, about 3.3 million contain out-of-date citizenship status codes. 7 As such,
these individuals may need to visit an SSA office to correct their Numident record before
they would be confirmed eligible for employment by the Basic Pilot.

CONCLUSION
Given the scope and breadth of information held in SSA’s Numident file, we applaud the
Agency on the accuracy of the data we tested. However, we estimate that
approximately 17.8 million Numident records contain discrepancies that may result in
incorrect Basic Pilot feedback to employers. As Congress considers legislation
requiring mandatory verification of all U.S. workers’ employment eligibility through a
system such as the Basic Pilot, we believe it should examine the significant workload
that may result from the millions of numberholders whose Numident records may need
to be corrected. Our review showed that the Numident records for these individuals
have discrepancies in the numberholders’ names, dates of birth, citizenship status
and/or death indications that would result in inaccurate feedback from the Basic Pilot.

Because our tests included SSNs that were assigned decades ago, we recognize that
some numberholders would no longer be working and would not attempt to correct their
SSA and/or immigration records. However, if even a portion of the estimated
numberholders whose Numident records contained discrepancies were required to visit
an SSA office to correct their information, the Agency’s workload may significantly
increase until such time as the affected records were corrected.




6
  As explained on pages 10 and 11 of this report, only 19 of these cases were included in the total
136 discrepancies that impacted Basic Pilot results. Although the remaining 43 foreign-born U.S. citizens
discussed were misclassified, DHS confirmed that they were Legal Permanent Residents and authorized
to work. As such, the Basic Pilot feedback was correct – they were eligible for employment.
7
 We believe this is a conservative estimate because DHS was only able to provide citizenship data for
506 of the 810 non-U.S. citizens in our sample.


Accuracy of the Social Security Administration’s Numident File (A-08-06-26100)                          iii
                                                                       Table of Contents
                                                                                                                  Page

INTRODUCTION ..................................................................................................... 1

RESULTS OF REVIEW .......................................................................................... 5

Native-Born U.S. Citizens........................................................................................ 6

Foreign-Born U.S. Citizens ...................................................................................... 9

Non-U.S. Citizens .................................................................................................. 11

CONCLUSION ...................................................................................................... 14

OTHER MATTER .................................................................................................. 15

APPENDICES

APPENDIX A – Acronyms

APPENDIX B – Scope and Methodology

APPENDIX C – Sample Results

APPENDIX D – Basic Pilot

APPENDIX E – Additional Discrepancies that Did Not Impact Basic Pilot
             Results




Accuracy of the Social Security Administration’s Numident File (A-08-06-26100)
                                                                           Introduction
OBJECTIVE
To assess the accuracy of the Social Security Administration’s (SSA) Numident fields
that are relied on by the Basic Pilot.

BACKGROUND
As of November 2005, SSA had assigned about 435 million Social Security numbers
(SSN)—for the primary purpose of accurately reporting and recording the earnings of
people who work in jobs covered by Social Security. When SSA assigns an SSN to an
individual, the Agency creates a master record in its “Numident” file containing relevant
information about the numberholder. This information includes the numberholder’s
name, date of birth, place of birth, parents’ names, citizenship status, date of death (if
applicable) and the office where the SSN application was processed and approved.
Additionally, the Numident record for each numberholder identifies (1) any changes to
the original information provided by the numberholder (for example, name changes,
revisions to citizenship status) and (2) an account of all replacement SSN cards
obtained.

The first explicit statutory authority to issue SSNs was enacted in 1972. 1 Before that
time, SSNs were issued pursuant to administrative procedures that the Agency had
established. At the inception of the program, all SSNs were assigned and cards issued
based solely on information provided by the applicant. Evidence of identity was not
required. However, beginning in November 1971, persons age 55 and over applying for
an SSN for the first time were required to submit evidence of identity. As of April 1974,
noncitizens were required to submit documentary evidence of age, identity and
immigration status. In May 1978, SSA began requiring all SSN applicants to provide
evidence of age, identity and U.S. citizenship or noncitizen status. 2 In addition, as of
September 2002, SSA began verifying all immigration documents with DHS before
assigning SSNs to noncitizens.




1
    Social Security Amendments of 1972, Pub. L. 92-603, 86 Stat. 1329 (1972).
2
 Subject Counterfeiting and Misuse of the Social Security Card and State and Local Identity Documents:
                                                                                                   th
Hearing Before the House Committee on the Judiciary, Subcommittee on Immigration and Claims, 106
          st
Cong., 1 Sess. 64 (1999) (statement of Glenna Donnelly, Assistant Deputy Commissioner, Office of
Disability and Income Security Programs, SSA).


Accuracy of the Social Security Administration’s Numident File (A-08-06-26100)                       1
SSA posts an employee’s wages to its Master Earnings File (MEF) 3 based on a Wage
and Tax Statement (Form W-2) submitted by his or her employer. 4 However, these
earnings can only be posted successfully to a numberholder’s MEF record if the name
and SSN reported on the Form W-2 match the information on SSA’s Numident file for
that individual. For example, if the Numident record for a numberholder contains a last
name that significantly differs from what the employer provided on the Form W-2, the
earnings will not be posted to the individual’s earnings record—and, if not corrected, will
not be counted towards the numberholder’s future Social Security benefits. Additionally,
if an employee falsely uses a name and/or SSN to work in the United States, which
does not match the associated Numident record, these wages will not be posted to the
correct numberholder’s account.

To prevent these name and SSN discrepancies, SSA provides employers and third
parties5 with a number of verification programs and services that allow them to verify
employees’ names and SSNs against SSA’s records before submitting the Form W-2s. 6
To ensure correct responses to employers through these verification services, it is
essential that SSA’s Numident records are as accurate and complete as possible.

On April 7, 2006, we received a request from the Honorable Jim McCrery of the House
Committee on Ways and Means, Chairman of the Subcommittee on Social Security, to
assist the Subcommittee in obtaining information on the reliability of SSA data the
Department of Homeland Security (DHS) uses to verify employment eligibility. In
particular, the Chairman asked that we assess the accuracy of SSA Numident fields that
are relied on by the Basic Pilot. The Chairman specified that we determine Numident
accuracy rates for each of the following populations: (1) native-born U.S. citizens,
(2) foreign-born U.S. citizens, and (3) non-U.S. citizens.

BASIC PILOT

The Basic Pilot is a DHS initiative supported by SSA through a Memorandum of
Understanding between the two agencies. The purpose of the Basic Pilot is to assist
employers in verifying the employment eligibility of newly-hired employees.

3
 The MEF, formally known as the Earnings Recording and Self-Employment Income System, Social
Security Administration, Office of Systems, SSA/OS 60-0059, contains all earnings data reported by
employers and self-employed individuals. SSA uses the data to determine eligibility for and the amount
of Social Security benefits. 71 Federal Register (FR) 1796, 1819-1820 (January 11, 2006).
4
 The Social Security Act § 205(c)(2)(A), 42 U.S.C. § 405(c)(2)(A) requires SSA to maintain records of
wage amounts employers pay to individuals.
5
 A third party would be a company or individual that submits or requests information on behalf of
someone else.
6
 While our review focuses on the Basic Pilot, SSA offers other types of employee verification services.
These tools include SSA’s Employee Verification Service for Registered Users, which allows employers to
submit employees’ names/SSNs via paper or magnetic media, and the Social Security Number
Verification Service, an on-line verification system. Unlike the Basic Pilot, these tools do not allow
employers to verify the work authorization status of employees.


Accuracy of the Social Security Administration’s Numident File (A-08-06-26100)                           2
Participating employers register on-line with DHS to use the automated system.
Information the employer submits to DHS is first sent to SSA to verify that the SSN,
name, and date of birth match SSA data contained on the employee’s Numident record.
If SSA verifies this information and no date of death is recorded on the Numident
record, SSA provides DHS with U.S. citizenship information for the individual—as
annotated on the numberholder’s most recent Numident record. If the employee alleges
U.S. citizenship and the Numident record also indicates the individual is a U.S. citizen,
the Basic Pilot then notifies the employer that work authorization is confirmed. If a
discrepancy is noted, the Basic Pilot sends the employer an “SSA tentative
nonconfirmation” response.

After SSA verifies the SSN, name and date of birth of noncitizens, the Basic Pilot
confirms current authorization to work in the United States with DHS. 7 If a discrepancy
occurs with an employee’s work authorization, the Basic Pilot sends the employer a
“DHS tentative nonconfirmation” response. In the case of either an SSA or DHS
tentative nonconfirmation, the employee is provided an opportunity to correct the
information contained in SSA and/or DHS records. See Appendix D for more
information on the Basic Pilot.

SCOPE AND METHODOLOGY
To achieve our objective, we reviewed a total of 2,430 SSNs that SSA assigned from
1936 through November 2005. We recognize that our tests included SSNs that were
assigned decades ago and some of these numberholders would no longer be working
and/or attempting to correct their SSA and/or immigration records. However, we
included all SSNs the Agency had assigned up to November 30, 2005, in our universe
because SSA does not delete, destroy, rescind, inactivate or cancel SSNs once they
are assigned. Accordingly, older SSNs could still be used—appropriately or
inappropriately—for employment purposes.

We selected our samples from a segment of SSA’s Numident file as of
November 30, 2005. 8 Specifically, as shown in Table 1, we reviewed 810 Numident
records for SSNs within each of the following 3 populations: (1) native-born U.S.
citizens, (2) foreign-born U.S. citizens, and (3) non-U.S. citizens.




7
 The determination as to whether a noncitizen is currently authorized to work rests with DHS—the Basic
Pilot places no reliance on work authorization information SSA has in its records in making this
determination.
8
  SSA stores Numident records in equal segments by arranging records in numerical order according to
the last two digits of the SSN (for example, 80-84, 85-89, 90-94, etc). Each segment represents
5 percent of all Numident records and there are 20 segments in total. It is common practice for SSA to
use a segment to estimate results to the entire file.


Accuracy of the Social Security Administration’s Numident File (A-08-06-26100)                           3
                        Table 1: Details of Sample Selected for Review
       Column A            Column B             Column C               Column D
                                          Number of SSNs in      Estimate of Total SSNs
                                               Segment 3          In Numident File for
       Category             Sample          of Numident File         Each Category
                              Size           (as of 11/30/05)       (Column C x 20)
    Native-Born U.S.            810               19,010,361                      380,207,220
    Citizens
    Foreign-Born U.S.           810                   402,667                        8,053,340
    Citizens
    Non-U.S. Citizens           810                2,326,218                       46,524,360
          Total               2,430               21,739,246                      434,784,920

Our tests compared the Numident data (name, SSN, date of birth and citizenship status)
to copies of the original Application for a Social Security Card (Form SS-5) and, when
applicable and available, copies of applications for replacement Social Security cards to
ensure that SSA personnel accurately entered the information provided by the
applicant. Additionally, we attempted to determine the legitimacy of any dates of death
present on Numident records. Further, we attempted to verify noncitizens’ and
foreign-born U.S. citizens’ “citizenship” status with DHS or the Department of State
(State). We also submitted the 1,620 U.S. citizen SSNs through the Basic Pilot, using
information provided by the numberholder on his or her Form SS-5. Finally, we
submitted all noncitizen SSN records through the Basic Pilot when we could obtain DHS
alien registration or admission numbers 9 or when we identified any discrepancies
between SSA and DHS information for the numberholder.

Underlying Assumptions

In performing our tests, we could not predict what proof of identity and work
authorization a numberholder would present to an employer. Therefore, we made the
following assumptions.
•    The information provided by the numberholder on his or her Form SS-5(s) was
     correct and would be the same data provided to an employer.
•    The information provided by DHS and/or State was correct.
See Appendix B for more information regarding our scope and methodology and
Appendix C for our sample results.

9
  The alien registration (or “A”) number is the 9-digit number following “A” that is shown on the “green
card” or Permanent Resident Card (Form I-551, formerly Form I-151 Alien Registration Receipt Card), the
Employment Authorization Document (I-766 and I-688B), and on certain other immigration documents
and notices. For newly admitted immigrants, the “A” number is shown on the machine-readable
immigrant visa affixed to the foreign passport. The admission number is the 11-digit number located on
the Arrival-Departure Record (Form I-94). Form I-94 shows the date the individual arrived in the United
States, the “Admitted Until” date, and the date when his or her authorized period of stay expires.
Form I-94 also usually shows the noncitizen’s class of admission (for example, “F-1,” which includes
noncitizen academic students in colleges, universities, seminaries, conservatories, academic high
schools, other academic institutions, or in language training).


Accuracy of the Social Security Administration’s Numident File (A-08-06-26100)                         4
                                                            Results of Review
SSA’s Numident file represents an extensive repository of personal information provided
by hundreds of millions of SSN applicants throughout the Agency’s history. The primary
purpose in maintaining this information is to ensure that U.S. workers receive
appropriate credit for the wages they earned and, ultimately, to provide full and accurate
benefits to entitled individuals. Recently, the House and Senate each passed
immigration reform bills that would mandate employers’ use of an employment eligibility
verification system similar to the Basic Pilot. 10 Given the extent and significance of the
proposed legislation, it is essential that the Numident file contain correct information.

We cannot predict what documentation every numberholder tested might present to an
employer when attempting to prove their identities and authorization to work in the
United States—as the current process allows a number of varying sources of this
information. Accordingly, our audit conclusions only pertain to the accuracy of SSA’s
Numident file when compared to (1) information SSN numberholders provided to SSA
when applying for their original and/or replacement Social Security cards and, if
applicable, (2) certain data elements DHS had for the Numident records tested. Despite
these limitations, we found SSA’s Numident file information to be generally accurate.

We identified some discrepancies that could result in incorrect feedback to employers
attempting to verify employees’ eligibility to work in the United States through the Basic
Pilot. Specifically, of the 2,430 Numident records reviewed, 136 contained
discrepancies that could result in inaccurate employment eligibility results—and, in most
cases, additional work for SSA and DHS as employees attempt to correct their
Numident and immigration records. 11 As a result, we estimate that data discrepancies
in approximately 17.8 million (4.1 percent)12 of the 435 million Numident records could
result in incorrect feedback when submitted through the Basic Pilot. 13 These
discrepancies are outlined in Table 2.


10
     S. 2611, 109th Cong., 2d Sess. § 301 (2006); H.R. 4437, 109th Cong., 2d Sess. Title VII (2006).
11
   Of the 136 discrepancies impacting Basic Pilot results, 7 resulted from differences between the
Numident and applicants’ Form SS-5s; 33 resulted from death indications on the Numident or other SSA
records, which did not preclude confirmation of employment eligibility; and 96 resulted from differences in
information contained on the Numident file and data provided to us by DHS (that is, numberholder’s
name, date of birth, or citizenship status.)
12
  This estimate was developed using a stratified sampling approach. We randomly selected
810 Numident records from each of the three populations. The three populations varied in size based on
the citizenship status and place of birth annotated on the Numident records. See Appendix C for our
sample results.
13
   Additional minor discrepancies were identified between the names and dates of birth shown on the
original Form SS-5s and the Numident records. However, Basic Pilot tolerances permitted employment
eligibility confirmation of these records. Further information regarding these discrepancies is provided in
Appendix E.


Accuracy of the Social Security Administration’s Numident File (A-08-06-26100)                                5
                 Table 2: Data Discrepancies in SSA’s Numident File
                                                  Data Fields
                                                    Death          Citizenship
 Population         Name         Date of Birth    Indication         Status      Total
Native-Born
                        2                2              23                0        27
U.S. Citizens
Foreign-Born
                        4                2               0              19         25
U.S. Citizens
Non-U.S.
                       14                3              10              57         84
Citizens
Total                  20                7              33              76       136

NATIVE-BORN U.S. CITIZENS
Generally, SSA Numident records for native-born U.S. citizens were accurate. Of the
810 Numident records reviewed in this population, we identified 27 (3.3 percent)
discrepancies that may result in inaccurate employment eligibility feedback from the
Basic Pilot. Given this accuracy rate, we estimate that of the approximately 380 million
native-born U.S. citizen records in the Numident file, about 12.7 million contain
discrepant information that may result in incorrect Basic Pilot feedback. As shown in
Table 3, these discrepancies involved name, date of birth, and death information that
did not match or had not been annotated on SSA’s Numident file. Additionally, we
noted that 19 (2.3 percent) of the 810 U.S. born citizen records we tested were age
90 and over, had no indication of death on any SSA record and were not currently
receiving SSA benefits. While these individuals may still be alive and, in some rare
cases working, the Basic Pilot has no edit that would require additional contact with
these individuals before confirming employment eligibility. We encourage SSA and
DHS to incorporate a step in the Basic Pilot requiring further verification of potential
employees who have reached a pre-determined age and/or have some indication of
death on an SSA system of record.

                Table 3: Native-Born U.S. Citizen Record Discrepancies
                           that May Affect Basic Pilot Results
                               Data                 Number of
                              Field               Discrepancies
                   Name                                   2
                   Date of Birth                          2
                   Death Indication                      23
                   Total                                 27




Accuracy of the Social Security Administration’s Numident File (A-08-06-26100)             6
Name and Date of Birth Discrepancies that Affected Basic Pilot Results

Two (0.24 percent) of the 810 native-born U.S. citizen Numident records tested
contained inaccurate spellings of the numberholders' names—when compared to the
associated Form SS-5s. When the proper names were tested in the Basic Pilot, it
returned an “SSA tentative nonconfirmation” for each. Additionally, 2 (0.24 percent)
other Numident records lacked a date of birth for the numberholders. When we tested
the dates of birth provided on the numberholders’ Form SS-5s, the Basic Pilot returned
an “SSA tentative nonconfirmation” response. As such, these individuals’ employment
eligibility may not be initially verified through the Basic Pilot and the numberholders may
need to correct their information with SSA.




Accuracy of the Social Security Administration’s Numident File (A-08-06-26100)            7
Death Indication Discrepancies that May Affect Basic Pilot Results

SSA provides a death indicator in its responses to the Basic Pilot. However, we
determined that 23 (2.8 percent) of the 810 native-born U.S. citizens within our sample
may be deceased according to SSA records, yet the Basic Pilot confirmed employment
eligibility for these numberholders. In seven of these cases, the Numident records had
no indication that the numberholder was deceased, but other SSA records (that is, the
Master Beneficiary Record or Supplemental Security Income Record 14) provided a date
of death for the individuals. In the other 16 cases, the Numident records were
annotated with a transaction code of “D,” which indicates that a report of death was
received by SSA, but the death was not confirmed. 15

Although SSA may not have verified the deaths of these numberholders, we do not
believe the Basic Pilot should confirm employment eligibility without some additional
contact with these individuals. If someone presented themselves as one of these
23 individuals to an employer and provided the correct name, SSN and date of birth, the
employer could incorrectly verify the individual’s employment eligibility through the Basic
Pilot. Accordingly, we encourage SSA to reconcile the Numident with other SSA
records and annotate Numident records when an indication of death is present.
Additionally, we believe the Basic Pilot should issue a tentative nonconfirmation notice
to employers that more investigation is necessary for individuals with a transaction code
of “D” on the Numident record (and any other code SSA chooses to use for death
indicators annotated from the aforementioned reconciliation). These suggestions are
not intended to preclude verification entirely, but to require further inquiry and resolution
before DHS confirms employment eligibility.

In response to a draft of this report, SSA requested that we note the following.

          SSA is working with State governments to improve the current paper-based
          process which we believe will resolve some of the issues with the Numident
          record not being updated. However, the most efficient manner to improve
          timeliness and accuracy of State data is by using Electronic Death Reporting
          (EDR); a web-based automation of the death registration process. Our goal is to
          receive verified death data within 24 hours of receipt in the State repository and
          within 5 days of death. To achieve that goal we have currently awarded 31 State
          EDR development contracts. Fourteen States plus the District of Columbia and
          the jurisdiction of New York City have already implemented EDR. We expect
          that an additional 7 States in FY 2007 and 8 more States in FY 2008 should

14
   SSA establishes a Master Beneficiary Record for each Old-Age, Survivors and Disability Insurance
claimant and a Supplemental Security Income Record for every Supplemental Security Income applicant.
These reports maintain pertinent information necessary to accurately pay benefits to the individuals. The
information maintained includes identification data (name, SSN, date of birth, address), type and date of
any disability, monthly benefit amounts, and the reason for terminating or suspending benefit payments.
The SSA published Privacy Act notices for the Master Beneficiary Record, SSA/ORSIS, 60-0090, and for
the Supplemental Security Income Record Display and Special Veteran’s Benefits, SSA/ODSSIS,
60-0103, in January 2006. 71 Federal Register (FR) 1796, 1826-1834 (January 11, 2006).
15
     According to an SSA representative, the Agency last used the “D” transaction code in 1983.


Accuracy of the Social Security Administration’s Numident File (A-08-06-26100)                          8
       implement EDR. Additionally, for the longer term, the provisions of the
       Intelligence Reform and Terrorism Prevention Act (IRTPA) of 2004 give grants to
       the States to cross match birth and death records within and among the States,
       and give the lead for the funding of EDR to the Department of Health and Human
       Services (HHS). We continue to work with HHS for the transition of funding for
       EDR beginning this fiscal year.

Numberholders Age 90 and Over Receive No Further Screening by Basic Pilot

Of the 810 native-born U.S. citizens reviewed, we identified 19 (2.3 percent) individuals
age 90 and over who had no indication of death on his or her Numident record or any
other SSA system of record and were not currently receiving SSA benefits. The oldest
of these numberholders would be 134 in 2006. While these are clearly old Numident
records established before SSA implemented improved procedures for reporting and
verifying deaths, we are concerned that the Basic Pilot has no control requiring
additional investigation or contact with these numberholders before confirming
employment eligibility. In fact, we tested these 19 individuals through the Basic Pilot
and all were confirmed eligible for employment.

We acknowledge that an employer should raise their own concerns when an employee
claims to have been born in 1872. However, to ensure that (1) no employee attempts to
misuse the identity of a deceased or aged person and (2) the employer does not
inadvertently or intentionally overlook the misuse of the aged person’s name, SSN and
date of birth, we believe the Basic Pilot should be revised to issue a notice to employers
that more investigation is necessary when an employee is older than a pre-established
age. 16




16
   In an October 2006 audit report Effectiveness of the Young Children's Earnings Records Reinstatement
Process (A-03-05-25009), we made a similar recommendation regarding SSA’s SSN verification service.
Specifically, we recommended that, consistent with the Agency’s disclosure policies, SSA modify the
Employer Verification Service for Registered Users and SSN Verification Service to detect SSNs for
children under age 7 to provide appropriate notice to employers and potentially reduce the number of
future notices. SSA agreed with our recommendation.


Accuracy of the Social Security Administration’s Numident File (A-08-06-26100)                       9
Informal comments SSA provided in response to a draft of this report pointed out that it
is illegal for employers to discriminate on the basis of age and that use of an indicator
for individuals over a specified age would require a new or amended routine under the
Privacy Act of 1974 to permit disclosure. Further, the Agency stated that its
Memorandum of Understanding with DHS would need to be modified to provide such an
indicator. Finally, SSA pointed out that DHS Form I-9 already requires employers to
certify that the documents submitted by an employee appear to be genuine and relate to
that employee.

While we are sensitive to the possibility of age discrimination and understand the legal
and contractual modifications that would be required, we continue to believe that the
Basic Pilot should not routinely confirm employment eligibility for a 134-year old
person—without, at the very minimum, some further conversation with that individual.
The determination whether such a control should be implemented rests with SSA, DHS
and Congress. However, we would be remiss if we did not point out this vulnerability in
the current process.

FOREIGN-BORN U.S. CITIZENS
Of the 810 foreign-born U.S. citizen Numident records reviewed, 25 (3.1 percent)
contained discrepant information that could result in incorrect employment eligibility
feedback from the Basic Pilot. As a result, we estimate that about 248,560 of the
approximately 8 million foreign-born U.S. citizen records contain discrepancies that may
result in incorrect employment eligibility results from the Basic Pilot. As shown in
Table 4, differences were noted between the name, date of birth or citizenship status
SSA annotated on the 25 Numident records and data provided by (1) the numberholder
on his or her Form SS-5 or (2) DHS. Further, we also noted that SSA documented an
incorrect citizenship code for 43 (5.3 percent) other foreign-born U.S. citizens within our
sample (which are not listed in Table 4.) However, these noncitizens were authorized to
work in the United States, so the incorrect citizenship code did not impact the Basic
Pilot results at the time of our review.

              Table 4: Foreign-Born U.S. Citizen Record Discrepancies
                          that May Affect Basic Pilot Results
                              Data                 Number of
                             Field               Discrepancies
                  Name                                   4
                  Date of Birth                          2
                  Citizenship Status                    19
                  Total                                 25




Accuracy of the Social Security Administration’s Numident File (A-08-06-26100)          10
Name and Date of Birth Discrepancies that Affected Basic Pilot Results

Of the 810 foreign-born U.S. citizen Numident records tested, we identified
4 (0.5 percent) discrepancies in the “name” field and 2 (0.2 percent) differences in the
“date of birth” field that caused the Basic Pilot to issue “SSA tentative nonconfirmation”
responses. In one case, when applying for an SSN, the numberholder documented on
the Form SS-5 that her first name was “Sabrina.” However, SSA recorded the
numberholder’s name as “Brina” in the Numident record. The Basic Pilot provides
tolerances for some differences in the spelling of names. However, the Basic Pilot did
not recognize these two names as the same individual. In five other cases, the name or
date of birth SSA documented on the Numident record disagreed with information
provided by DHS. 17 These discrepancies also impacted Basic Pilot results and caused
“SSA tentative nonconfirmation” responses.

Citizenship Status Discrepancies

Based on DHS information, we determined that 62 (7.7 percent) of the 810 foreign-born
U.S. citizen records reviewed were not actually U.S. citizens. Because SSA does not
maintain copies of documents SSN applicants present to the Agency, we were unable
to determine whether these individuals presented false evidence of U.S. citizenship to
SSA or Agency personnel simply miscoded the information. 18 Despite the citizenship
indications on SSA’s Numident records, these numberholders are not citizens and their
work authorization status should be determined by DHS. We estimate that about
616,420 other numberholders in the foreign-born U.S. citizen population (which totals
approximately 8 million) may have been improperly classified as U.S. citizens in SSA
records.

Of the 62 misclassified numberholders, 43 are Legal Permanent Residents (LPR) 19 and,
as such, authorized to work in the United States. These 43 discrepancies did not result
in incorrect Basic Pilot feedback because employers would have been accurately
notified that these individuals were eligible for employment. However, if something
changes with their LPR status (for example, emigration, deportation, or failure to renew
their status), their permission to work in the United States may be taken away. In fact,
one DHS study estimated that, between 1900 and 1990, one-quarter to one-third of all


17
  In response to a draft of this report, SSA stated that in December 2005, the Agency began requiring
noncitizens to show their legal name on the SSN card—as reflected on the immigration document.
Before that date, noncitizens could use a name reflected on an identity document; however, the name on
the immigration document should have been annotated on the Numident.
18
  Only 4 of these 62 citizenship discrepancies occurred after September 2002, the month in which SSA
began verifying all immigration documents with DHS.
19
   LPRs are foreign nationals who have been granted the right to reside permanently in the United States.
LPRs are often referred to simply as "immigrants," but they are also known as "permanent resident
aliens" and "green card holders." LPRs are permitted to live and work anywhere in the United States, to
own property, to attend public schools, to join certain branches of the Armed Forces, and they may also
become U.S. citizens if they meet certain eligibility requirements.


Accuracy of the Social Security Administration’s Numident File (A-08-06-26100)                         11
LPRs emigrated from the United States. 20 Yet, the SSNs assigned to these individuals
remain active. Therefore, the numberholders—or anyone posing as the
numberholders—could continue to use the SSNs to work in the United States long after
they are authorized to do so. Accordingly, we caution SSA and DHS that improper
employment eligibility confirmations may eventually result from the incorrect citizenship
status currently shown on these SSA records.

According to DHS, the remaining 19 misclassified numberholders needed further
investigation before their work authorization status could be verified. Specifically, if
SSA’s citizenship codes had been correct for these numberholders, the Basic Pilot
would have referred these records to DHS for review and possible contact with the
numberholder before work authorization was established. Given the uncertainty of the
numberholders’ employment eligibility, we considered the discrepancies in SSA’s
citizenship codes to have caused improper Basic Pilot feedback and included these
cases in Table 4.

NON-U.S. CITIZENS
Non-U.S. citizen (noncitizen) records within SSA’s Numident file contained a much
higher degree of error than the U.S. citizen populations. Specifically, of the
810 noncitizen records tested, 84 (10.4 percent) contained discrepancies that may
result in inaccurate employment eligibility results from the Basic Pilot. As shown in
Table 5, these discrepancies resulted from differences in names, dates of birth,
citizenship status and death indications. Many of these differences were caused
because the numberholder did not update his or her information with SSA (for example,
the noncitizen did not notify SSA when he or she became a U.S. citizen). As a result,
we estimate that of the approximately 46.5 million noncitizen records contained in SSA’s
Numident file, 4.8 million contain discrepancies that could require the numberholder to
visit an SSA office to correct his or her Numident record before employment eligibility
would be confirmed.

Additionally, as in the native-born U.S. citizen population, we identified
50 numberholders who were age 90 or over and had no indication of death present on
their SSA records and were not currently receiving SSA benefits. As currently
structured, the Basic Pilot would confirm employment eligibility for these individuals
without any further contact or investigation.




20
 DHS, Office of Immigration Statistics Policy Directorate, publication Estimates of the Legal Permanent
Resident Population and Population Eligible to Naturalize in 2004, issued February 2006.


Accuracy of the Social Security Administration’s Numident File (A-08-06-26100)                        12
                     Table 5: Non-U.S. Citizen Record Discrepancies
                             that May Affect Basic Pilot Results
                                 Data                 Number of
                                Field               Discrepancies
                     Name                                  14
                     Date of Birth                          3
                     Citizenship Status                    57
                     Death Indication                      10
                     Total                                 84

Name and Date of Birth Discrepancies that Affected Basic Pilot Results

Fourteen (1.7 percent) of the 810 Numident records tested contained numberholders'
names that differed from either the individuals’ Form SS-5 or DHS-provided data. 21
When the alternate spellings were tested in the Basic Pilot, it returned an “SSA tentative
nonconfirmation” for each. Additionally, 3 (0.4 percent) other Numident records
contained a date of birth that differed from the Form SS-5 or DHS data. As such, these
individuals’ employment eligibility may not be initially verified through the Basic Pilot and
the numberholders may have to correct their information with SSA.

Citizenship Status Discrepancies that Affected Basic Pilot Results

Based on DHS information, we determined that 57 (7.0 percent) of the 810 noncitizens
tested were actually U.S. citizens—but had not updated their immigration/citizenship
status with SSA. As a result, if these individuals alleged citizenship to an employer, the
Basic Pilot would not initially confirm employment eligibility. Although SSA is not at fault
for these misclassifications, we estimate that of the 46.5 million non-U.S. citizen records
in SSA’s Numident file, about 3.3 million contain incorrect citizenship status codes. 22 As
such, these individuals may need to visit an SSA office to correct their Numident
records before they would be confirmed eligible for employment by the Basic Pilot.




21
  In response to a draft of this report, SSA stated that in December 2005, the Agency began requiring
noncitizens to show their legal name on the SSN card—as reflected on the immigration document.
Before that date, noncitizens could use a name reflected on an identity document; however, the name on
the immigration document should have been annotated on the Numident.
22
  We believe this is a conservative estimate because DHS was only able to provide citizenship data for
506 of the 810 non-U.S. citizens in our sample.


Accuracy of the Social Security Administration’s Numident File (A-08-06-26100)                           13
Death Indication Discrepancies that May Affect Basic Pilot Results

Additionally, we determined that 10 (1.2 percent) of the 810 noncitizens within our
sample may be deceased according to SSA records. However, the Basic Pilot
confirmed employment eligibility for these numberholders. In seven of these cases, the
Numident records had no indication the numberholder was deceased. Yet, other SSA
records (that is, the Master Beneficiary Record) provided a date of death for the
individuals. In the other three cases, the Numident records were annotated with a
transaction code of “D,” which indicates that a report of death was received by SSA, but
the death was not confirmed.

As previously mentioned in this report, we do not believe the Basic Pilot should confirm
employment eligibility without some additional contact with these individuals. Rather,
we believe SSA should first reconcile its records and annotate any indications of death
on the Numident—if an indicator is not already present. Secondly, we believe the Basic
Pilot should issue a tentative nonconfirmation notice to employers that more
investigation is necessary for individuals with a transaction code of “D” on the Numident
record (and any other code SSA chooses to use for death indicators annotated from the
aforementioned reconciliation).

Numberholders Age 90 and Over Receive No Further Screening by Basic Pilot

Within the sample of 810 noncitizens reviewed, we identified 50 (6.2 percent) individuals
age 90 and over who had no indication of death on his or her Numident record or any
other SSA system of record and were not currently receiving SSA benefits. The oldest
of these numberholders would be 139 in 2006. As mentioned previously in this report,
we are concerned that the Basic Pilot has no control requiring additional investigation or
contact with these numberholders before confirming employment eligibility. In fact, we
tested these 50 individuals through the Basic Pilot and all were confirmed eligible for
employment. As such, we believe the Basic Pilot should be revised to issue a notice to
employers that more investigation is necessary when an employee is older than a
pre-established age.




Accuracy of the Social Security Administration’s Numident File (A-08-06-26100)         14
                                                                      Conclusion
Given the scope and breadth of information held in SSA’s Numident file, we applaud the
Agency on the accuracy of the data we tested. However, we estimate that about
17.8 million Numident records contain discrepancies that may result in incorrect Basic
Pilot feedback to employers. As Congress considers legislation requiring mandatory
verification of all U.S. workers’ employment eligibility through a system such as the
Basic Pilot, we believe it should also consider the significant workload that may result
from the millions of numberholders whose Numident records may need to be corrected.
Our review showed that the Numident records for these individuals have discrepancies
in the numberholders’ names, dates of birth, citizenship status and/or death indications
that would result in inaccurate feedback from the Basic Pilot.

Because our tests included SSNs that were assigned decades ago, we recognize that
some numberholders would no longer be working and would not attempt to correct their
SSA and/or immigration records. However, if even a portion of the estimated
numberholders whose Numident records contained discrepancies were required to visit
an SSA office to correct their information, the Agency’s workload may significantly
increase until such time as the affected records were corrected.




Accuracy of the Social Security Administration’s Numident File (A-08-06-26100)        15
                                                                  Other Matter
DHS’ U.S. CITIZENSHIP AND IMMIGRATION SERVICES UNABLE TO
LOCATE IMMIGRATION RECORDS FOR NONCITIZEN RECORDS
DHS’ U.S. Citizenship and Immigration Services (USCIS) was unable to locate
immigration records for 304 (37.5 percent) of the 810 noncitizen numberholders in our
sample—through its computer data match. As such, for these numberholders, we could
not determine whether SSA’s Numident data matched DHS information (such as, name,
date of birth and citizenship status). USCIS stated it could not match/locate these
records through computer searches because of data compatibility problems.
Specifically, USCIS’ Central Index System records are organized by alien number
(A-Number). Visitors or other noncitizens can be admitted under an I-94 Admission
number. The records of these admissions are tracked in various DHS databases,
primarily the Treasury Enforcement Communications System/Interagency Border
Inspection System. We could only provide DHS with data SSA recorded on the
noncitizen’s Form SS-5 or in the Numident—which generally included the
numberholder’s name, date of birth, place of birth, parents’ names, approximate date of
entry to the United States (date of the SSN application) and, if SSA recorded it, the
noncitizen’s alien (A-number) or admission number.

We first requested immigration information from DHS for noncitizens in our sample on
May 8, 2006. USCIS retained the services of a contractor, which used computer
searches based on the numberholder’s name and date of birth, in attempting to locate
the records in USCIS’ Central Index System. On occasion, USCIS also attempted to
manually search its records for the individuals. On December 6, 2006, USCIS provided
the following statement regarding its inability to match/locate some of these records.

       Thank you for the opportunity to comment on those records USCIS was unable
       to match. The attached file you provided contains the names and information of
       data either not found or not matched in entirety in the Central Index System (CIS)
       or in manual records located here. SSA provided names and dates of birth in
       order for USCIS to match data and locate an A-number within USCIS' Central
       Index System to determine the Class of Admission. Past attempts to match SSA
       and USCIS data have shown that it is difficult to match records without a
       common numerical identifier between the two systems (Numident and CIS).
       Since SSA uses SSN and CIS is A-number driven it can be difficult to match
       records based solely on name and date of birth because slightly different names
       may be used with each agency, and names may change. Moreover, birth dates
       may be incorrect or miskeyed in one system or the other. Additionally, there may
       be more than one person with the same name and date of birth, making it
       impossible to know which record is the correct match.

       It should be noted that the lack of a match does not mean the CIS system is
       deficient. It may well be the case that non-citizens who are not known to USCIS
       because they are illegal entrants have obtained SSNs, and thus have a



Accuracy of the Social Security Administration’s Numident File (A-08-06-26100)              16
       Numident record. Without knowing the specifics of each of the 304 cases, we
       cannot draw conclusions about whether the mismatch was due to inadequate
       information provided, or due to the fact that no USCIS record exists on the
       subject of the Numident record. The possibility that some are not known to
       USCIS because they are not lawful entrants should not be excluded.1 USCIS
       Records Division has checked CIS to the best extent possible based on the
       names and information provided.

       _____________________
       1
         Footnote to USCIS Statement. We would also note that a significant percentage of the records
       worked with overall in this study were older ones, which are the ones most likely to lack a
       corresponding USCIS record because they related to SSN’s issued pre-1974, when SSA did not
       require proof of identity or citizenship, and thus are more likely to pertain to an unlawful alien than
       newer Numident records.



We believe certain aspects of USCIS’ statement need further clarification. First, we
provided USCIS more data than just the numberholders’ names and dates of birth.
Additionally, with respect to the footnote included in USCIS’ statement, we would point
out that 605 (74.7 percent) of the 810 noncitizen SSNs reviewed were assigned after
April 15, 1974, the date on which SSA began requiring proof of alien status for
noncitizens as part of the SSN application process. In fact, 347 (42.8 percent) were
assigned after January 1, 1990. Further, of the 304 records USCIS could not
match/locate, 184 (60.5 percent) of the SSNs were assigned after April 15, 1974. In
fact, 127 (41.8 percent) of the 304 records were assigned after January 1, 1990.

We acknowledge that most noncitizen numberholders seeking employment would be
able to provide employers their alien or admission number so that DHS could confirm
their employment eligibility through the Basic Pilot. In many cases the newly hired
employee shows his or her USCIS-issued documentation as proof of identity and work
authorization, and this documentation includes an A-number or an I-94 Admission
number. Noncitizens are required to carry their immigration documentation with them at
all times, so these numbers should be readily available. USCIS advised us that in their
operation of the Basic Pilot program and the evaluations they have been conducting for
the last 7 years, they have not encountered lack of A-numbers or admission numbers
on Form I-9 as a major concern raised by employers or employees participating in the
Basic Pilot program. One of these DHS-issued numbers must be listed on the Form I-9
by all noncitizen new hires, whether or not their employer is participating in the Basic
Pilot. Nevertheless, we are somewhat concerned with USCIS’ inability to locate these
records. If only a small portion of the 46.5 million noncitizen numberholders have
forgotten or misplaced their alien or admission numbers, the workload for DHS may
increase as these individuals attempt to confirm their employment eligibility and/or
correct their immigration records.




Accuracy of the Social Security Administration’s Numident File (A-08-06-26100)                                   17
                                            Appendices




Accuracy of the Social Security Administration’s Numident File (A-08-06-26100)
                                                                            Appendix A

Acronyms
    DHS                 Department of Homeland Security

    EDR                 Electronic Death Reporting

    HHS                 Department of Health and Human Services

    IRTPA               Intelligence Reform and Terrorism Prevention Act of 2004

    MEF                 Master Earnings File

    OIG                 Office of the Inspector General

    SSA                 Social Security Administration

    SSN                 Social Security Number

    State               Department of State

    U.S.                United States

    U.S.C.              United States Code



    Forms

    I-9                 Employment Eligibility Verification

    I-94                Arrival-Departure Record

    I-151               Alien Registration Receipt Card

    I-551               Permanent Resident Card

    I-766 and           Employment Authorization Document
    I-688B
    SS-5                Application for a Social Security Card

    W-2                 Wage and Tax Statement




Accuracy of the Social Security Administration’s Numident File (A-08-06-26100)
                                                                                  Appendix B

Scope and Methodology
To accomplish our objective, we performed the following steps.

•     Reviewed pertinent sections of the Social Security Administration’s (SSA) policies
      and procedures as well as other relevant Federal laws and regulations.

•     Reviewed Office of the Inspector General, Government Accountability Office and
      Department of Homeland Security (DHS) reports and other relevant documents.

•     Randomly selected a segment of SSA’s Numident file as of November 30, 2005. 1
      From the segment, we stratified the Social Security numbers (SSN) into three
      populations and randomly selected 810 Numident records for review from each:
      (1) native-born U.S. citizens, (2) foreign-born U.S. citizens and (3) non-U.S. citizens.
      Table 1 provides the actual number of SSNs in Segment 3, categorized by the
      aforementioned populations.
                        Table 1: Details of Sample Selected for Review
       Column A            Column B            Column C                Column D
                                                                 Estimate of Total SSNs
                                          Number of SSNs in       In Numident File for
       Category             Sample             Segment 3             Each Category
                              Size          of Numident File        (Column C x 20)
    Native-Born U.S.            810                 19,010,361                    380,207,220
    Citizens
    Foreign-Born U.S.           810                    402,667                       8,053,340
    Citizens
    Non-U.S. Citizens           810                  2,326,218                     46,524,360
          Total               2,430                 21,739,246                    434,784,920

•     For each sample item, we obtained copies of the original Application for a Social
      Security Card (Form SS-5) and any subsequent SS-5s that resulted in an update to
      the numberholder’s Numident record (for example, a name change or change in
      citizenship status.)

•     We then compared the Numident data (name, SSN, date of birth, and citizenship
      status) to the SS-5s to ensure SSA personnel correctly recorded the information
      provided by the applicant.



1
  SSA stores Numident records in equal segments by arranging records in numerical order according to
the last two digits of the SSN (for example, 80-84, 85-89, 90-94, etc). Each segment represents
5 percent of all Numident records and there are 20 segments in total. It is common practice for SSA to
use a segment to estimate results to the entire file.


Accuracy of the Social Security Administration’s Numident File (A-08-06-26100)                      B-1
•   We attempted to determine the legitimacy of any dates of death present on the
    Numident records, if applicable, by (1) researching SSA and other records to
    determine what State and/or jurisdiction the death occurred and (2) if located,
    requesting a copy of the death certificate from that location.

•   For numberholders age 90 and over, who did not have a date of death annotated on
    their Numident records, we reviewed SSA’s Master Beneficiary Record and
    Supplemental Security Income Record Display to determine whether a death
    indication was noted on these records for the individual and whether they were
    currently receiving SSA benefits.

•   We verified foreign-born noncitizens’ and foreign-born U.S. citizens’ “citizenship”
    status with DHS and/or the Department of State (State).

•   We obtained birth and, if applicable, marriage and/or death certificates for the first
    50 sample items in each of the 3 populations.

•   We submitted the 1,620 U.S. citizen SSNs through the Basic Pilot, using
    information provided by the numberholder on his or her Form SS-5. Further, we
    submitted all noncitizen SSN records through the Basic Pilot when we could obtain
    DHS alien or admission numbers or when we identified any discrepancies between
    SSA and DHS information for the numberholder.

•   We summarized and projected our results to the entire Numident universe (all
    20 segments) as of November 30, 2005. See Appendix C for our sample results.

Underlying Assumptions
In performing our tests, we could not predict what proof of identity and employment
eligibility a numberholder would present to an employer. Therefore, we made the
following assumptions.
•   The information provided by the numberholder on his or her Form SS-5 was correct
    and would be the same data provided to an employer.
•   The information provided by DHS and/or State was correct.
Our review of internal controls was limited to obtaining an understanding of SSA’s SSN
assignment process, the Numident file and the SSA/DHS Basic Pilot—and conducting
the tests outlined above. The objective of our review was to determine the reliability of
the Numident file. Accordingly, we determined that the Numident file information was
generally reliable. However, we did not test the information provided by DHS and State.
Accordingly, we cannot opine to its reliability. Any conclusions discussed in this report,
which were predicated on information provided by DHS or State, have been annotated
with the appropriate qualification.
The SSA entities audited were the Offices of Operations, Systems, and Income and
Security Programs. We conducted the audit between April and November 2006 in
Birmingham, Alabama. We conducted our audit in accordance with generally accepted
government auditing standards.


Accuracy of the Social Security Administration’s Numident File (A-08-06-26100)            B-2
                                                                                   Appendix C

Sample Results
Table 1: Sample Results and Projections for All Citizenship Categories

                  U.S. Citizens (Native- and Foreign-born) and Non-U.S. Citizens
    Population of SSNs assigned since 1936 from one segment of the Numident
         1
    file                                                                            21,739,246
    Sample Size                                                                          2,430
                                        Attribute Projections
    Number of discrepancies in sample                                                     136
    Estimate of discrepancies in segment                                              887,344
    Projection—Lower Limit                                                            647,130
    Projection—Upper Limit                                                           1,127,558
                                        Numident Estimate
    Estimate of discrepancies for the entire Numident file
    (887,344 x 20 segments)                                                         17,746,880
    Projections made at the 95-percent confidence level.




1
  We estimate SSA assigned approximately 435 million SSNs between 1936 and November 2005
(21,739,246 in Numident segment 3 X 20 segments = 434,784,920).


Accuracy of the Social Security Administration’s Numident File (A-08-06-26100)                   C-1
Table 2: Sample Results and Projections For Individual Citizenship Strata

                                 Native-Born U.S. Citizens

 Population of SSNs assigned 1936-November 2005 from one segment of the
 Numident                                                                        19,010,361
 Sample size                                                                           810
                                     Attribute Projection
 Number of discrepancies in sample                                                      27
 Estimate of discrepancies in segment                                              633,679
                                     Numident Estimate
 Estimate of discrepancies for entire Numident file
                                                                                 12,673,580
 (633,679 x 20 segments)
                                Foreign-Born U.S. Citizens
 Population of SSNs assigned 1936-November 2005 from one segment of the
 Numident                                                                          402,667
 Sample size                                                                           810
                                     Attribute Projection
 Number of discrepancies in sample                                                      25
 Estimate of discrepancies in segment                                               12,428
                                     Numident Estimate
 Estimate of discrepancies for entire Numident file
                                                                                   248,560
 (12,428 x 20 segments)
                                      Non-U.S. Citizens
 Population of SSNs assigned 1936-November 2005 from one segment of the
 Numident                                                                         2,326,218
 Sample size                                                                           810
                                     Attribute Projection
 Number of discrepancies in sample                                                      84
 Estimate of discrepancies in segment                                              241,237
                                     Numident Estimate
 Estimate of discrepancies for entire Numident file
                                                                                  4,824,740
 (241,237 x 20 segments)




Accuracy of the Social Security Administration’s Numident File (A-08-06-26100)                C-2
Table 3: Other Projections for Foreign-Born U.S. Citizens

               Foreign-Born U.S. Citizens—Misclassified in the Numident File
 Population of SSNs assigned 1936-November 2005 from one segment of
 the Numident                                                                     402,667
 Sample size                                                                          810
                                     Attribute Projection
 Number of individuals who were not citizens in sample                                 62
 Estimate of number of individuals who are not citizens in segment                 30,821
                                     Numident Estimate

 Estimate of number of individuals who are not citizens in entire                 616,420
 Numident file (30,821 x 20 segments)


Table 4: Other Projections for Non-U.S. Citizens

                   Non-U.S. Citizens—Misclassified in the Numident File
 Population of SSNs assigned 1936-November 2005 from one segment of the
 Numident                                                                        2,326,218
 Sample size                                                                          810
                                     Attribute Projection
 Number of instances in sample where citizenship was misclassified in sample           57
 Estimate of discrepancies in segment                                             163,697
                                     Numident Estimate
 Estimate of number of instances where citizenship was misclassified in
                                                                                 3,273,940
 entire Numident file (163,697 x 20 segments)




Accuracy of the Social Security Administration’s Numident File (A-08-06-26100)               C-3
                                                                                   Appendix D

Basic Pilot
The Basic Pilot is a Department of Homeland Security (DHS) initiative, supported by the
Social Security Administration (SSA) through a Memorandum of Understanding
between the two agencies. 1 The purpose of the Basic Pilot is to assist employers in
verifying the employment eligibility of newly-hired employees. The President signed
The Basic Pilot Program Extension and Expansion Act of 2003 (Public Law
Number 108-156) into law on December 3, 2003. This law extended the operation of
the Basic Pilot for an additional 5 years (to a total of 11 years) and expanded the
operation to all 50 States not later than December 1, 2004.

As discussed with SSA and DHS staff, the Basic Pilot involves using the information in
Government databases (SSA databases and, if needed, DHS databases) to determine
the employment eligibility of new hires. The Social Security number (SSN) and Alien
Registration Number ("A" Number) or I-94 Number (Admission Number) are used for
these checks. The employer must complete the DHS-issued Employment Eligibility
Verification Form (Form I-9) for each employee and then enter elements of this data into
the Basic Pilot within 3 days of hiring, including the employee's SSN, name, date of birth,
and whether the new hire indicated he or she was a U.S. citizen and, if not, the "A"
Number or I-94 Number.

The system first checks the information entered against SSA's database to verify the
name, SSN, and date of birth of newly-hired employees, regardless of citizenship. When
the Numident indicates United States citizenship for the newly-hired employee and the
new-hire indicated that he/she is a U.S. citizen, the Basic Pilot automated system
confirms employment eligibility. If the Basic Pilot system cannot confirm employment
eligibility based on the information in SSA's database or an "A" Number or I-94 Number
was entered, the Basic Pilot system checks the data against DHS' database.

The employer will receive notification of "SSA tentative nonconfirmation" of employment
eligibility when the SSN, name, or date of birth does not match the information in SSA's
database or if a death indicator is present. Also, employers will receive an "SSA
tentative nonconfirmation" if the new hire indicated he or she was a U.S. citizen and
SSA's records did not show that the person was a U.S. citizen. The employer will
receive notification of "DHS tentative nonconfirmation" of employment eligibility when
DHS' database does not show the newly-hired noncitizen as authorized for employment.
In these cases, the employer asks the employee whether he or she wishes to contest
the tentative nonconfirmation. If contested, the employee must contact SSA or DHS
within 8 Government working days of the notification. After the employee contacts SSA
or DHS to correct the record, the employer resubmits the query through the Basic Pilot
system. If the system does not confirm employment eligibility after the employer
resubmits the query, the employer may terminate the new hire.
1
  Section 401 et seq. of the Illegal Immigration Reform and Immigrant Responsibility Act of 1996
(8 U.S.C. §1324a), Pub. Law No. 104-208.


Accuracy of the Social Security Administration’s Numident File (A-08-06-26100)
                                                                            Appendix E

Additional Discrepancies that Did Not Impact
Basic Pilot Results

Discrepancies that
  Did Not Impact             Native-born Foreign-born                  Non-U.S.
     Basic Pilot             U.S. Citizens U.S. Citizens               Citizens
Name                              13            167                      160
Date of Birth                      9              9                        16
Citizenship                        0             43                        43
Totals:                           22            219                      219




Accuracy of the Social Security Administration’s Numident File (A-08-06-26100)
                          DISTRIBUTION SCHEDULE

Commissioner of Social Security
Office of Management and Budget, Income Maintenance Branch
Chairman and Ranking Member, Committee on Ways and Means
Chief of Staff, Committee on Ways and Means
Chairman and Ranking Minority Member, Subcommittee on Social Security
Majority and Minority Staff Director, Subcommittee on Social Security
Chairman and Ranking Minority Member, Subcommittee on Human Resources
Chairman and Ranking Minority Member, Committee on Budget, House of
Representatives
Chairman and Ranking Minority Member, Committee on Government Reform and
Oversight
Chairman and Ranking Minority Member, Committee on Governmental Affairs
Chairman and Ranking Minority Member, Committee on Appropriations, House of
Representatives
Chairman and Ranking Minority, Subcommittee on Labor, Health and Human Services,
Education and Related Agencies, Committee on Appropriations,
 House of Representatives
Chairman and Ranking Minority Member, Committee on Appropriations, U.S. Senate
Chairman and Ranking Minority Member, Subcommittee on Labor, Health and Human
Services, Education and Related Agencies, Committee on Appropriations, U.S. Senate
Chairman and Ranking Minority Member, Committee on Finance
Chairman and Ranking Minority Member, Subcommittee on Social Security and Family
Policy
Chairman and Ranking Minority Member, Senate Special Committee on Aging
Social Security Advisory Board
               Overview of the Office of the Inspector General
The Office of the Inspector General (OIG) is comprised of our Office of Investigations (OI),
Office of Audit (OA), Office of the Chief Counsel to the Inspector General (OCCIG), and Office
of Resource Management (ORM). To ensure compliance with policies and procedures, internal
controls, and professional standards, we also have a comprehensive Professional Responsibility
and Quality Assurance program.
                                        Office of Audit
OA conducts and/or supervises financial and performance audits of the Social Security
Administration’s (SSA) programs and operations and makes recommendations to ensure
program objectives are achieved effectively and efficiently. Financial audits assess whether
SSA’s financial statements fairly present SSA’s financial position, results of operations, and cash
flow. Performance audits review the economy, efficiency, and effectiveness of SSA’s programs
and operations. OA also conducts short-term management and program evaluations and projects
on issues of concern to SSA, Congress, and the general public.


                                    Office of Investigations
OI conducts and coordinates investigative activity related to fraud, waste, abuse, and
mismanagement in SSA programs and operations. This includes wrongdoing by applicants,
beneficiaries, contractors, third parties, or SSA employees performing their official duties. This
office serves as OIG liaison to the Department of Justice on all matters relating to the
investigations of SSA programs and personnel. OI also conducts joint investigations with other
Federal, State, and local law enforcement agencies.


                   Office of the Chief Counsel to the Inspector General
OCCIG provides independent legal advice and counsel to the IG on various matters, including
statutes, regulations, legislation, and policy directives. OCCIG also advises the IG on
investigative procedures and techniques, as well as on legal implications and conclusions to be
drawn from audit and investigative material. Finally, OCCIG administers the Civil Monetary
Penalty program.
                              Office of Resource Management
ORM supports OIG by providing information resource management and systems security. ORM
also coordinates OIG’s budget, procurement, telecommunications, facilities, and human
resources. In addition, ORM is the focal point for OIG’s strategic planning function and the
development and implementation of performance measures required by the Government
Performance and Results Act of 1993.
